         Office of Inspector General




September 29, 2006

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Mail Transport Equipment – Transportation of Over the Road
         Containers (Report Number NL-AR-06-014)

This is one in a series of follow-up reports to our audit, Mail Transport Equipment
Service Center Decision Analysis Report, Performance and Financial Benefit (Report
Number TR-AR-01-003, dated May 4, 2001). It presents results from our mail transport
equipment service center (MTESC) audit (Project Number 06XG008NL000).

Our objectives were to determine if management implemented our recommendations
and whether there were additional opportunities to save money. Our May 4, 2001,
report recommended, in part, the U.S. Postal Service reduce cost by:

   •   Requiring facilities to reuse serviceable equipment rather than returning it to
       service centers.

   •   Reducing transportation associated with the network.

We concluded that Postal Service Headquarters vigorously implemented our equipment
reuse recommendation and is aggressively pursuing opportunities to reduce MTESC
transportation. As a result, from March 2002 to September 2005, the Postal Service
saved about $9.7 million in transportation costs to move serviceable Over the Road
(OTR) containers between mail processing facilities and MTESCs. We also concluded
that because all facilities did not quickly comply with headquarters' guidance, the Postal
Service may have missed an opportunity to save an additional $1.7 million. Finally, we
concluded the Postal Service could still save about $700,000 over the next 2 years if all
facilities immediately implement headquarters' guidance. This represents $10,465,495
of funds put to better use and $1,738,252 of unrecoverable costs and will be reported as
such in our Semiannual Report to Congress. We recommended that management
reemphasize OTR container policy to all mail processing facilities.

Previous MTESC reports for New York, New Jersey, San Francisco, and Memphis
identified findings associated with returning serviceable OTR containers to MTESCs.
Those findings, and the monetary impact of those findings, were reported separately in
our Semiannual Reports to Congress and are not duplicated here. This report focuses
on the remaining 18 MTESCs in the 22 facility network.

Management agreed with our recommendation and stated they would reemphasize
instructions on OTRs to all applicable mail processing facilities. While management did
not specifically comment on the monetary impact of our findings, we will address that
issue during our routine audit procedure for closing significant recommendations.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers the
recommendation significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. This recommendation should not be closed in the follow-up tracking system
until the OIG provides written confirmation the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Joe Oliva, Director, Transportation, or me at (703) 248-2100.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc:   Patrick R. Donahoe
      William P. Galligan
      Don M. Spatola
      Beverly A. Van Soest
      Steven R. Phelps
Mail Transport Equipment – Transportation of                                                               NL-AR-06-014
 Over the Road Containers



                                            INTRODUCTION

 Background                    The mail transport equipment service center (MTESC)
                               network is a system of 22 contractor-operated service
                               centers designed to supply mailbags, carts, hampers, and
                               other mail transport equipment (MTE) to mail processing
                               facilities nationwide. The service centers deliver equipment
                               to users with dedicated transportation.


                                        Seattle




                                                                                                                                Springfield
                                                                      Minneapolis
                                                                                                                     New Jersey
                                                                                                Detroit
                                                                    Des Moines                                    Pittsburgh        Long Island
                                                                                      Chicago
                                                                                                                               Philadelphia

                                 San Francisco          Denver
                                                                                                     Cincinnati      Front Royal
   The MTESC network is a                                        Kansas City
                                                                               St. Louis
     nationwide system of
                                                                                                                       Greensboro
    22 contractor-operated           Los Angeles
                                                                                           Memphis

       service centers.
                                                                                                       Atlanta

                                                                      Dallas/
                                                                      Ft. Worth                                      Jacksonville




                                                   22 MTESC Locations Nationwide



                               The original plan to create the network was presented to the
                               U.S. Postal Service Board of Governors (BOG) in the
                               Decision Analysis Report (DAR), Mail Transport Equipment
                               Service Center Network (dated May 13, 1997). The DAR
                               forecasted costs exceeding $3.6 billion over 10 years and
                               the BOG approved it in June 1997. The new network
                               became fully operational in January 2000. From the outset,
                               there were allegations of poor performance and excessive
                               costs associated with the new network. As a result, the
                               BOG asked the U.S. Postal Service Office of Inspector
                               General (OIG) to evaluate the program.

                               Our audit report titled Mail Transport Equipment Service
                               Center Decision Analysis Report, Performance and
                               Financial Benefit (Report Number TR-AR-01-003, dated
                               May 4, 2001) concluded the network would not achieve the
                               financial benefits anticipated by the DAR. We
                               recommended, in part, management reduce costs by:



                                                    1
Mail Transport Equipment – Transportation of                                   NL-AR-06-014
 Over the Road Containers



                                    •   Requiring facilities to reuse serviceable equipment
                                        rather than returning it to service centers.

                                    •   Reducing transportation associated with the network.

 Objective, Scope, and         This report is one in a series of follow-up reports to our
 Methodology                   May 4, 2001 audit. Our objectives were to determine if
                               management implemented our recommendations and
                               whether there were additional opportunities to save money.
                               This report focuses on the transportation cost of returning
                               serviceable Over the Road (OTR) containers to MTESCs.




      This picture depicts
 serviceable OTR containers
 at the Memphis, Tennessee,
     MTESC, April 6, 2005.




                               During our work, we interviewed Postal Service
                               Headquarters officials in Network Operations Management
                               and Supply Management. We also interviewed Postal
                               Service officials, managers, and employees in the Eastern,
                               Southeast, Southwest, and Western Areas, as well as
                               contractor managers and employees. We examined
                               relevant Postal Service policies, procedures, and directives;
                               observed and photographed operations; used computer
                               assisted analysis techniques; and consulted with
                               subject-matter experts.

                               To determine the cost of returning serviceable OTR
                               containers to MTESCs, we examined computer data and
                               other records for the period October 2000 through October
                               2005. Although we did not audit or comprehensively



                                                  2
Mail Transport Equipment – Transportation of                                  NL-AR-06-014
 Over the Road Containers


                               validate the data or records, we noted several weaknesses
                               in data quality that constrained our work. For example:

                                    •   We could not fully use computer-assisted analysis
                                        techniques because most billing records were not
                                        automated until fiscal year 2005.

                                    •   Some manual billing records were not available.

                               Despite these constraints, we were able to support our audit
                               conclusions by applying alternate audit procedures,
                               including source document examination, data imputation,
                               observation, physical inspection, and discussion with
                               responsible officials.

                               We performed our work in close coordination with the
                               Network Operations Management transportation
                               assessment team and area personnel, discussed our
                               observations and conclusions with various management
                               officials, and included their comments where appropriate.

                               We conducted work associated with this report from
                               December 2005 through September 2006 in accordance
                               with generally accepted government auditing standards and
                               included such tests of internal controls as we considered
                               necessary under the circumstances.

 Prior Audit Coverage          Since March 2005, the OIG has worked with the Postal
                               Service to reduce MTESC costs. As a result, we have
                               issued eight audit reports that identified potential savings
                               exceeding $15.8 million. For more detailed information
                               about these audits, see Appendix A. Previous MTESC
                               reports for New York, New Jersey, San Francisco, and
                               Memphis identified findings associated with returning
                               serviceable OTR containers to MTESCs. Those findings,
                               and the monetary impact of those findings, are not
                               duplicated in this report. This report focuses on the
                               remaining 18 MTESCs in the 22 facility network.




                                                 3
Mail Transport Equipment – Transportation of                                    NL-AR-06-014
 Over the Road Containers


                                        AUDIT RESULTS
 Transporting               The Postal Service implemented our equipment reuse
 Serviceable Over           recommendation and is aggressively pursuing opportunities to
 the Road                   reduce MTESC transportation. In response to our equipment
 Containers                 reuse recommendation, the Postal Service Chief Operating
                            Officer issued the first of several policy letters on March 1, 2002.
                            The letters prohibited facilities from shipping serviceable OTR
                            containers to MTESCs and stipulated they could only transport
                            containers requiring repair. (See Appendices B, C, and D.)




    This poster reflects
   Postal Service policy
     guidance issued
      March 1, 2002.

       Serviceable
 OTR containers are to be
  managed by bulk mail
 centers (BMC) and only
  sent to MTESCs when
   they require repair.

   Postal Service policy
   specifically prohibits
 employees from sending
     serviceable OTR
  containers to MTESCs
     whether they are
     “full or empty.”




                            From March 2002 to September 2005, as a result of vigorous
                            implementation of our equipment reuse recommendation, the
                            Postal Service saved about $9.7 million in transportation costs to
                            move serviceable OTR containers between mail processing
                            facilities and MTESCs. However, the Postal Service may have
                            missed an opportunity to save an additional $1.7 million in


                                                 4
Mail Transport Equipment – Transportation of                                             NL-AR-06-014
 Over the Road Containers


                            transportation costs because some mail processing facilities did
Policy letter issued        not quickly comply with headquarters' policy.
  March 1, 2002

                                            OTR Container Transportation Cost
                                 Illustration of Cost Methodology (Source Appendix E)
  Cost

  $400,000
                               6-month
                            implementation
  $350,000                      period.
  $300,000

  $250,000

  $200,000
                                                                    $9.7 million in achieved savings
  $150,000

  $100,000

   $50,000
                                                      Missed opportunity for saving $1.7 million
       $0
         MAR       SEP      MAR        SEP      MAR        SEP        MAR        SEP       MAR         SEP
          01        01       02         02       03         03         04         04        05          05

        OTR Transportation Baseline                        OTR Transportation Reduction
        Projected OTR Transportation                       OTR Transportation Goal



                            Notwithstanding the potential missed opportunity, the Postal
                            Service can still save approximately $700,000 over the next
                            2 years if all facilities implement and follow the headquarters'
                            OTR container policy guidance. For a detailed cost analysis, see
                            Appendix E.




    The MTESC network
      uses dedicated
      transportation.

   Returning serviceable
     OTR containers to
      MTESCs adds
       unnecessary
  transportation costs to
       the network.

   This dedicated MTE
    tractor-trailer was
  photographed near the
    Atlanta MTESC in
       March 2006.




                                                     5
Mail Transport Equipment – Transportation of                                                                                                                                                                                    NL-AR-06-014
 Over the Road Containers



            Compliance with                                                             As indicated in the Prior Audit Coverage section of this report, the
            Headquarters’ Over                                                          MTESC network has 22 service centers. In previous MTESC
            the Road Container                                                          reports for New York, New Jersey, San Francisco, and Memphis,
            Policy                                                                      we reported compliance at those facilities. Those findings, and
                                                                                        the monetary impact of those findings, are not duplicated here.
                                                                                        The chart below reflects compliance with policy at the remaining
                                                                                        18 facilities as of September 30, 2005. For example, since
                                                                                        Postal Service Headquarters issued the OTR container policy
                                                                                        letter on March 1, 2002, mail processing facilities serviced by the
                                                                                        Washington MTESC have reduced the number of OTR
                                                                                        containers shipped to it by 92 percent. However, facilities
                                                                                        serviced by the Dallas MTESC have only reduced OTR
                                                                                        containers shipped to it by 45 percent.


                                                Analysis of OTR Container Policy Compliance as of September 30, 2005
                                                                                                                                     (Source: Appendix E)
Percentage of Volume Reduction




                                 100

                                  80

                                  60

                                  40

                                  20

                                   0
                                       Dallas

                                                  Atlanta

                                                            Greensboro




                                                                                                                                                                                                                                       Detroit
                                                                                                                                                                                               Kansas City




                                                                                                                                                                                                                          Cincinnati
                                                                                                                                                                                                             Pittsburgh




                                                                                                                                                                                                                                                 St. Louis
                                                                                                                                                                            Denver
                                                                                                                       Los Angeles

                                                                                                                                      Philadelphia
                                                                         Jacksonville

                                                                                           Springfield

                                                                                                         Minneapolis




                                                                                                                                                               Des Moines




                                                                                                                                                                                     Chicago




                                                                                                                                                                                                                                                             Washington
                                                                                                                                                     Seattle




                                                                                        To determine why all facilities were not fully complying with
                                                                                        headquarters’ policy we spoke with Postal Service area officials
                                                                                        and BMC managers and observed operations at MTESCs in
                                                                                        Dallas, Atlanta, Greensboro, and Minneapolis. Postal Service
                                                                                        policy requires facilities to return mailbags and other equipment
                                                                                        they do not need directly to MTESCs. Various officials explained
                                                                                        some facilities or customers were not returning unneeded
                                                                                        equipment directly to MTESCs as they required but, instead,
                                                                                        were loading used equipment into OTR containers and sending
                                                                                        the full OTR containers to BMCs. BMC personnel explained that
                                                                                        because they were not staffed to unload mail bags and sacks
                                                                                        from the OTR containers, they merely transshipped the full OTR
                                                                                        containers back to the MTESCs. BMC officials agreed the



                                                                                                                                                     6
Mail Transport Equipment – Transportation of                                      NL-AR-06-014
 Over the Road Containers


                           improper receipt of MTE from mail processing facilities was a
                           significant factor in preventing them from fully complying with the
                           OTR container policy. The chart below reflects our observation
                           of the high percentage of serviceable OTR containers received
                           by MTESCs during our site visits.

                                         Serviceable OTR Site Visit Observations

                                               Serviceable    Repaired                  Serviceable
  The chart to the right                          OTR          OTR        Total OTR       OTRs
 reflects the percentage          MTESC        Containers    Containers   Containers    Percentage
   of serviceable OTR
 containers received by        Atlanta            318           20          338            94%
 MTESCs during our site
 visits between January
                               Dallas             227           30          257            88%
      and June 2006.           Greensboro         241           12          253            95%
                               Minneapolis         67           27           94            71%
                               Total              853           89          942            91%

                           Although headquarters took aggressive and positive action to
                           implement our recommendation, we believe there is an
                           opportunity to further reduce the transportation costs associated
                           with shipment of serviceable OTR containers through reemphasis
                           of headquarters’ policy.

 Recommendation            We recommend the Vice President, Network Operations
                           Management:

                               1. Reemphasize the Postal Service’s Over the Road
                                  container policy to all mail processing facilities including
                                  processing and distribution centers and all other feeder
                                  facilities.

 Management’s              Management agreed with our recommendation and stated they
 Comments                  would reissue instructions on OTRs to all applicable mail
                           processing facilities. Management’s comments, in their entirety,
                           are included in Appendix F.

 Evaluation of             Management’s comments are responsive to our finding and
 Management’s              recommendation. While management did not specifically
 Comments                  comment on the monetary impact of our findings, we will address
                           that issue during our routine audit procedure for closing
                           significant recommendations. We consider management’s
                           actions, taken or planned, sufficient to address the
                           recommendation we made in our report.




                                                  7
Mail Transport Equipment – Transportation of                                                                                     NL-AR-06-014
 Over-the-Road Containers




                                                             APPENDIX A
                                                        PRIOR AUDIT COVERAGE

                                                                                                               Additional
                                                          Number of                                              Trips
                                                        Trips Identified                                      Management
                                               Date            for                                  Trips      Identified       Trips        Trips
                                               Final      Elimination                              Agreed          for       Management   With Which
         Report                 Report        Report           or          Potential Savings        to by     Elimination     Agreed to   Management
         Name                   Number        Issued     Modification          Identified        Management   During Audit     Assess      Disagreed

   MTESC Network –
  Equipment Processing       NL-AR-05-006     3/31/05                               $9,213,576

MTESC Network – Highway
  Transportation Routes
  New York Metro Area        NL-AR-05-014     9/28/05         49                     1,025,812       17                          32

    MTESC Network –
  Highway Transportation
  Routes – San Francisco     NL-AR-06-003     3/23/06         77                     1,092,640       31           21                          25

    MTESC Network –
  Highway Transportation
    Routes – Memphis         NL-AR-06-005     3/28/06         25                      699,397                                    25

MTESC – Proposed Change
 to Quality Inspection and
  Payment Authorization
          Controls           NL-AR-06-007     7/20/06

    MTESC Network –
  Highway Transportation
     Routes – Atlanta        NL-AR-06-009     8/18/06         90                      801,097        90

    MTESC Network –
  Highway Transportation
   Routes – Greensboro       NL-AR-06-Draft                   73                     1,607,510       62                          11

    MTESC Network –
  Highway Transportation
     Routes – Dallas         NL-AR-06-Draft                   66                     1,476,981       63            3
         Totals                                              380                 $15,917,013        263           24            68           25



                                                                             8
Mail Transport Equipment – Transportation of        NL-AR-06-014
 Over-the-Road Containers




                             APPENDIX B
                OVER THE ROAD CONTAINER POLICY LETTER




                                               9
Mail Transport Equipment – Transportation of        NL-AR-06-014
 Over-the-Road Containers




                       APPENDIX C
   REEMPHASIS OF OVER THE ROAD CONTAINER POLICY LETTER




                                               10
Mail Transport Equipment – Transportation of                                            NL-AR-06-014
 Over-the-Road Containers




                           APPENDIX D
               MEMORANDUM TO AREAS ABOUT PROPER
        USE, STORAGE, AND DISTRIBUTION OF MAIL TRANSPORT
                           EQUIPMENT

June 11, 2002

VICE PRESIDENTS, AREA OPERATIONS
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Mail Transport Equipment

The Postal Service created the Mail Transport Equipment Service Center (MTESC) Network to process,
repair, store, and distribute mail transport equipment (MTE) in a timely and efficient manner. Before this
innovative, equipment-management program was established, customers and employees would regularly
complain about the adequacy of the supply and the poor condition of this equipment.

Now that we have realized benefits from the establishment of this network, we must work diligently to
ensure we maximize the efficiencies and ultimately improve the bottom-line of the Postal Service.

There is a need to focus on what gets sent to the MTESCs and, in particular, when and how equipment
should be returned. There are instances when equipment is being returned by a plant followed shortly
after by an order for the same types of equipment. Shipping equipment to the MTESC should not be
done solely to free up space at the plant. Part of the planning process should include setting aside some
equipment for fulfilling in-house needs as well as customer needs.

To that end, it is imperative that postal managers at processing and distribution centers returning empty
equipment for consolidation, repair, and storage follow appropriate operating procedures. These
procedures include:

    •   ensuring that adequate stock of equipment is retained on site before dispatching any excess
        MTE;
    •   ensuring that trailers returning equipment to the MTESCs are fully loaded, including the cube
        space of rolling stock;
    •   ensuring that all equipment is free of trash including labels on trays, tubs, and sacks;
    •   and most importantly, ensuring that there is no mail in any piece of equipment.

By taking steps to maximize cube space in trailers, removing labels, and capturing misdirected mail, we
can contribute more to the Postal Service's Transformation strategy. If you have any questions, please
contact Regina Wesson at (202) 268-4376.


Paul Vogel
Vice President, Network Operations Management




                                                    11
     Mail Transport Equipment – Transportation of                                             NL-AR-06-014
      Over-the-Road Containers


                                          APPENDIX E
                                   SAVINGS SUMMARY ANALYSIS

                                          Percentage                         Questioned Costs:
                                         Reduction in          Future             Costs for
                      Cumulative OTR         OTR            (2 year) OTR     Transporting More
                       Transportation      Equipment      Transportation        Than Target
                          Savings         Transported     Cost Avoidance     March 2002 – Sept.
                      March 23, 2002 –       as of              Using         30, 2005 "Grace           Total Monetary
  Facility Site        Sept. 30, 2005    Sept. 30, 2005    Sept. 30, 2005          Period"                  Impact
Atlanta           $       137,472.92         52%                $45,533.76   $   441,299.39         $       624,306.06
Chicago                 2,097,611.37          86                    679.46        74,010.62               2,172,301.46
Cincinnati                761,583.78          88                 49,575.78        48,316.48                 859,476.04
Dallas                    246,894.52          45                 82,848.40       104,235.15                 433,978.07
Denver                    580,842.53          85                  3,052.22        17,439.38                 601,334.13
Des Moines                322,938.49          84                      0.00         3,578.17                 326,516.66
Detroit                   330,862.31          91                      0.00        11,224.40                 342,086.71
Greensboro              1,530,497.72          64                  5,937.18       473,143.99               2,009,578.89
Jacksonville              498,406.46          66                411,312.33       154,895.62               1,064,614.40
Kansas City                95,874.81          87                  8,291.83        24,604.16                 128,770.80
Los Angeles               182,817.65          74                      0.00        1,773.47                  184,591.12
Minneapolis               926,680.19          72                  4,305.26        84,509.02               1,015,494.47
Philadelphia              332,534.79          76                 45,540.94        96,332.89                 474,408.62
Pittsburgh                677,358.54          88                 39,255.42       151,459.63                 868,073.58
Seattle                   160,559.48          79                    221.78        14,463.61                 175,244.88
Springfield               241,807.37          71                      0.00         6,716.91                 248,524.28
St. Louis                 235,859.96          91                 10,984.88        28,684.49                 275,529.33
Washington                397,352.78          92                      0.00        1,564.85                  398,917.63

        TOTAL:           $9,757,955.67       77%               $707,539.23        $1,738,252.23         $12,203,747.13




                                                          12
Mail Transport Equipment – Transportation of           NL-AR-06-014
 Over-the-Road Containers


                   APPENDIX F. MANAGEMENT’S COMMENTS




                                               13
